                                       NATIONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                         I
                        11                 ARLINGTON, VIRGINIA 22230




    OFFICEOF        I                                                   t

INSPECTOR GENERAL                              21 September 2000     * "
                    I
                    I

            r                                                               .   , A           1
                    I
          MEMO TO: File




          SUBJECT: Case Closeout, #I000700 1 1

                1

          1.     his case was initiated                 an investigation based on
                ,information provided by              Office of Polar Programs. The
                 allegation involved an                       computer intrusion of the
                'united States Antarctic Program (USAP) servers, located at the ~mundken-
                JScottSouth Pole Station.



                                                                    submitted the required Federal
                                                                                    Reporting Form.

                                 ook general systems precautionary measures with assistance~from
                                   ,NSF/OIG.
         3*-I




           1 2000.           No further OIG action is being taken at this time.

         5. ) This investigation is closed.
           1i
